210a

Appendix Q
Exhibit K to the Amended Motion to Dismiss
[El]ectronically Filed – Warren – June 17, 2019
–11:58 AM 1
{85} 2
A8 Thursday, October 18, 2018 [;] THE WALL
STREET JOURNAL. [;] WORLD NEWS 3
Canada’s Legalization of Pot Offers Test
[photograph]
In Toronto, people smoked cannabis on the
street Wednesday after Canada legalized
recreational marijuana use. 4
Patchwork of regulations and supply
constraints will likely slow retail rollout
By Paul Vieira
OTTAWA – Canada became the largest
country to legalize the recreational use of
Said electronic filing information appears across
top of the article above the date and in light blue
lettering.
2 Exhibit sticker appears in the bottom-right corner,
the page number is handwritten and in brackets {}
herein, and article appears vertically.
3 Said information appears across top of page above
article’s title.
4 Statement appears directly under the photograph.
1

211a

marijuana on Wednesday, a potentially
watershed moment for a nascent cannabis
industry that is banking on showing the drug can
be safely regulated.
The first Group of Seven country to
embrace legalization, Canada is joining eight
U.S. states, Washington, D.C., and the South
American
country
of
Uruguay.
Its
implementation here will likely serve as a test
case for other governments considering an
alternative approach to cannabis.
The country’s big push hasn’t been
without hiccups. There are widespread worries
that a patchwork of retail regulations and a
shortage of legal supply mean the black market
won’t disappear soon.
Canada is “in the driver’s seat now, but it
is up to us to take advantage of the policy in place
that lets us be world leaders – because that won’t
last forever,” said Jay Wilgar, chief executive of
Newstrike Brands Ltd., a licensed cannabis
producer based in Oakville, Ontario.
Legalization had already started to
reshape Canada’s financial markets. There are
more than 120 marijuana companies listed on
Canadian stock exchanges, but the market is
overshadowed by five whose total stock market
value has ballooned to more than $40 billion
from less than $4 billion in the past year.
Canada’s cannabis regime has also
attracted the attention of global consumer-goods
firms, who are eager not to miss out on the next
big trend. Corona brewer Constellation Brands
acquired last year a 10% stake in Canopy

212a

Growth Corp., one of Canada’s largest,
government-approved marijuana producers, and
in August invested an additional $4 billion in the
Smith Falls, Ontario, grower and seller. Molson
Coors Brewing Co. is also in a joint venture with
Hexo Corp., a Quebec-based cannabis company,
to
make
nonalcoholic,
cannabis-infused
beverages for the Canadian market.
One of the bigger risks for Canada is how
the U.S. reacts. In the U.S., the use, sale or
possession of marijuana is illegal under federal
law. Attorney General Jess Sessions is also a
longtime critic of marijuana.
Officials from the U.S. Customs Border
and Protection agency reiterated Wednesday
Canadians were prohibited from bringing
marijuana from their country into the U.S. The
agency added employees of Canadian cannabis
firms could be turned back from the U.S. border
if their visit is tied to cultivating marijuana
business.
“They can establish their own rules,”
Ralph Goodale, Canada’s public safety minister,
told reporters in Ottawa on Wednesday.
Canadian Prime Minister Justin Trudeau,
who made legalization a campaign promise back
in 2015, has argued it is the best way to keep
marijuana out of the hands of youth and
eliminate criminal organizations from the
cannabis trade.
Others have expressed concerns. “Given
the known and unknown health hazards of
cannabis, any increase in use of recreational
cannabis after legalization, whether by adults or

213a

youth, should be viewed as failure” of
legalization, the Canadian Medical Association
Journal said in an editorial this week.
Cannabis spending in the fourth quarter
is projected to reach up to 1.34 billion Canadian
dollars (US$1.03billion), or C$6.30 billion on an
annual basis, according to Statistics Canada, the
national data-gathering agency.
–Jacquie McNish in Toronto and Robert

Hiltz in Montreal contributed to this article.

214a

Appendix R
Exhibit L to the Amended Motion to Dismiss
[El]ectronically Filed – Warren – June 17, 2019
–11:58 AM 1
{86}
Warren County Record [;] May 9, 2019 [;]
NATIONAL EMS WEEK [;] photograph
appears to the left of article 2
{87}
Warrenton lowers marijuana buffer
Reduced to 100 feet from schools, churches
By Adam Rollins
Record Staff Writer
The length of three school buses could one
day separate a church, school or day care in
Warrenton
from
a
medical
marijuana
dispensary, under new rules approved by the
city’s board of aldermen.
Said electronic filing information appears across
top of the article on both pages and in light blue
lettering.
2
Said information, excluding the photograph,
appears across top of page above article’s title with
the entire first page of the article appearing as the
second page of the exhibit; exhibit sticker appears in
the bottom-right corner, page numbers are
handwritten and in brackets {} herein, and article
appears vertically.
1

215a

The board voted May 7 to reduce a default
buffer zone around school and church facilities
from 1,000 feet down to 100 feet for dispensaries,
as part of new planning and zoning regulations
for medical marijuana-related businesses.
Aldermen said the new setback distance matches
the city’s regulation for liquor stores.
Aldermen left in place the 1,000-foot
buffer established by state law for facilities
related to the production of medical marijuana
products.
These types of businesses will soon appear
across Missouri after voters last year approved a
constitutional amendment legalizing medical
marijuana.
The amendment allows local
governments to enforce certain restrictions to
protect public health and safety and prevent
nuisances.
The new zoning rules were unanimously
approved by aldermen during the regular public
meeting May 7. The rules describe where
different types of medical marijuana facilities
may be established in the city of Warrenton.
In addition to not being allowed next to
existing schools and churches, all marijuanarelated facilities are prohibited within 100 feet of
the Interstate 70 corridor and within 100 feet of
Main Street.
A dispensary would be allowed in any
commercial area of the city, with certain areas
requiring a conditional use permit from the
board of aldermen. Dispensaries are prohibited
in residential and industrial areas.

216a

Any business related to the three stages of
medical marijuana production – cultivation,
manufacturing and testing – would be confined
to areas zoned for light industrial uses.
Ward 2 Alderman Gary Auch said the city
has already received inquiries about perSee BUFFER Page 8A

217a

Appendix S
[El]ectronically Filed – Warren – June 17, 2019
–12:00 AM 1
IN THE CIRCUIT COURT OF WARREN
COUNTY
STATE OF MISSOURI
STATE OF MISSOURI,
Plaintiff
v.
DARRIN LAMASA,
Defendant

)
)
)
)
)

Cause No. 18BB-CR00013-01
Division No. 3
AMENDED MOTION TO STAY
COMES NOW Defendant, by and through
undersigned counsel of record, pursuant to
caselaw and due process, and requests the Court
enter an order staying the proceedings for
purposes of considering Defendant’s amended
motion to dismiss and, depending on the Court’s
ruling, while Defendant seeks an appellate writ
and, if necessary, a writ from the United States
Supreme Court. As grounds, Defendant states
as follows:
Said electronic filing information appears
vertically along the right side of all pages beginning
at the top and in light blue lettering.
1

218a

1. “Stay of proceedings is not a matter of
right but involves the exercise of some discretion
by the trial court as to granting and as to
duration; but it would be an abuse of discretion
to refuse a stay properly required by the
circumstances.” State ex rel. Great American
Ins. Co. v. Jones, 396 S.W.2d 601, 605 (Mo. banc
1965) (internal citations omitted).
2. Defendant is charged with “the class C
felony of trafficking in the second degree[]” based
on the possession of a certain amount of
marijuana. See Information.
3.
Defendant has filed an amended
motion
to
dismiss
challenging
the
constitutionality of marijuana as a Schedule I
controlled substance. See amended motion
{1} 2
to dismiss.
4. On November 6, 2018, the Missouri
Constitution was amended with an initiative
petition to include medical marijuana that
passed as a ballot measure. See amended motion
to dismiss, exhibit D – 2018 election information;
Mo. Const. art. XIV.
5. “Due process of law requires that the
proceedings shall be fair, but fairness is a
relative, not an absolute concept. It is fairness
with reference to particular conditions or
particular results.” Snyder v. Massachusetts,
291 U.S. 97, 116 (1934).

Page numbers are at the bottom, in Microsoft Word,
and appear in brackets {} herein.
2

219a

WHEREFORE, considering the issues
involved, Defendant requests the Court enter an
order staying the proceedings for purposes of
considering Defendant’s amended motion to
dismiss and, depending on the Court’s ruling,
while Defendant seeks an appellate writ and, if
necessary, a writ from the United States
Supreme Court.
Respectfully submitted,
/s/ Lou Horwitz
__________________________
Louis Horwitz, Mo Bar No. 56155
Lou Horwitz L.L.C.
1 Mid Rivers Mall Drive, Suite 280
St. Peters, MO 63376
Tel: 636-279-1532
Fax: 636-279-1632
Email: LouHorwitzLLC@att.net
Certificate of Service
I certify that on this 17th day of June, 2019, a
true copy of the above and foregoing was
electronically served via the Missouri eFiling
System to the Warren County Prosecuting
Attorney’s office, 104 W. Main, Suite E,
Warrenton, MO 63383.
{2}
/s/ Lou Horwitz
__________________________
Louis Horwitz
{3}

220a

Appendix T
Circuit Clerk 1
WARREN COUNTY

TIM BEARD
104 WEST MAIN STREET
SUITE G
WARRENTON, MO 63383
Phone: 636-456-3363
Facsimile: 636-456-2422
STATE OF MISSOURI

)

COUNTY OF WARREN

)

I, TIM BEARD, Clerk of the Circuit Court of
Warren County, Missouri, do herewith certify
that the foregoing attached papers are true and
accurate copies from the Court file in Warren
County Court Case Number 18BB-CR00013-01
re: STATE V DARRIN LAMASA.
2 Pages consist in this Certification
WITNESS MY HAND AND SEAL of said court
Hereunto set this 22ND day of
October, 2019
/s/
1

/bdf

To the left appears the state seal.

221a

Time Beard, Circuit Clerk 2
Warren County – 12th Circuit
[next page]
Report: CZR0026 v18.0 3
Case continued from previous page.
12TH JUDICIAL CIRCUIT
WARREN
CIRCUIT COURT DOCKET SHEET
Date: 22-Oct-2019
Time: 10:44:55AM
Page: 3
18BB-CR00013-01
ST V DARRIN JOSEPH LAMASA
Security Level: 1 Public
[docket sheet entries]
Notice; Electronic Filing
Certificate of Service.
File By: LOUIS RICHARD
HORWITZ
Motion to Dismiss
Amended Motion to Dismiss;
Table of Contents; Index to
To the left appears county seal.
The information from Report through Security
Level appears above the docket sheet entries.
2
3

222a

Exhibits; Exhibit A; Exhibit B;
Exhibit C; Exhibit D; Exhibit E;
Exhibit F; Exhibit G; Exhibit H part 1; Exhibit H - part 2;
Electronic Filing Certificate of
Service.
Filed by: LOUIS RICHARD
HORWITZ
On Behalf Of: DARRIN JOSEPH
LAMASA
18-Jun-2019
Motion
Hearing Held
01-Jul-2019
Motion
Denied
Exhibit Filed
Exhibit H - part 3; Electronic
Filing Certificate of Service.
Filed By: LOUIS RICHARD
HORWITZ
Exhibit Filed
Exhibit I; Electronic Filing
Certificate of Service.
Filed By: LOUIS RICHARD
HORWITZ
Exhibit Filed
Exhibit J; Electronic Filing
Certificate of Service.
Filed By: LOUIS RICHARD
HORWITZ
Exhibit Filed
Exhibit K; Electronic Filing
Certificate of Service.
Filed By: LOUIS RICHARD
HORWITZ

223a

Exhibit Filed
Exhibit L; Electronic Filing
Certificate of Service.
Filed By: LOUIS RICHARD
HORWITZ
On Behalf Of: DARRIN
JOSEPH LAMASA
Note to Clerk eFiling
Filed By: LOUIS RICHARD
HORWITZ
Motion to Stay
Amended Motion to Stay;
Electronic Filing
Certificate of Service.
Filed By: LOUIS RICHARD
HORWITZ
On Behalf Of: DARRIN
JOSEPH LAMASA
18-Jun-2019
Motion
Hearing Held
06-Sep-2019
Motion
Denied
18-Jun-2019

Motion Hearing Held
State appears, defendant
appears by counsel.
Defendant’s Amended
Motion to Dismiss is taken
under advisement.
Defendant’s Amended
Motion to Sta[]y is
continued to 08-09-19 at
11:30AM. MSW

224a

Motion Hearing Scheduled
Scheduled For: 09-Aug-2019;
11:30AM;
MICHAEL S WRIGHT; Setting:
0; Warren
Sound Recording Log Sheet
01-Jul-2019

Motion Denied
The Court having had time
to review and consider the
Defendant’s mended motion
to dismiss on constitutional
grounds, the amended
motion is hereby Denied.
Cause remains on August 8,
2019 11:30 am docket
for Defendant’s amended
motion to stay. /MSW
01-Jul-2019
Order - Denied
Order - Denied

11-Jul-2019

Request for Records Filed
Request for docket sheet
entry; Electronic
Filing Certificate of Service.
Hand delivered on 07-162019 with payment of $1.50
received. /bdf
Filed By: LOUIS RICHARD
HORWITZ
On Behalf Of: DARRIN
JOSEPH LAMASA

225a

17-Jul-2019

Notice
Notice of Petition for Writ of
Prohibition; Electronic
Filing Certificate of Service.
Filed By: LOUIS RICHARD
HORWITZ
On Behalf Of: DARRIN
JOSEPH LAMASA

226a

Appendix U
[El]ectronically Filed – EASTERN DISTRICT
CT OF APPEALS – July 17, 2019 – 11:16 AM 1
IN THE
MISSOURI COURT OF APPEALS
EASTERN DISTRICT
STATE OF MISSOURI ex rel.
DARRIN LAMASA,
Relator,
v.
THE HONORABLE MICHAEL
WRIGHT, Associate Circuit Judge,
12th Judicial Circuit, Warren
County, Missouri,
Respondent.

)
)
)
)
)
)
)
)

Cause No. ED108054 2
(Re: Warren County Case 18BB-CR00013-01)
PETITION FOR WRIT OF PROHIBITION
COMES NOW Darrin Lamasa, Relator, by
and through undersigned counsel, pursuant to
Supreme Court Rule 97, and petitions the Court
for a writ of prohibition regarding Respondent’s
Said electronic filing information appears
vertically along the right side of all pages beginning
at the top and in light blue lettering.
2 Said case number appear at the top-right of the first
page and to the left of electronic filing information.
1

227a

July 1, 2019 order summarily denying Relator’s
amended motion to dismiss that claims section
195.017.2(4)(w) (i.e., marijuana’s statutory
codification as a Schedule I controlled substance)
is not valid under the Due Process Clauses. 3
{1} 4
STATEMENT OF JURISDICTION
When a Relator petitions for an “original
remedial writ” and “adequate relief can be
afforded . . . by application for such writ to a
lower court[,]” but the petition “involv[es] the
validity . . . of a statute[,]” does Rule 84.22
operate as an exception to Mo. Const. art. V, § 3?
Rule 84.22, Id.; Mo. Const. art. V, § 3.
“The supreme court and districts of the
court of appeals may issue and determine
original remedial writs.” Mo. Const. art. V, § 4.1.
“The supreme court may establish rules relating
to practice, procedure and pleading for all courts
and administrative tribunals, which shall have
the force and effect of law.” Mo. Const. art. V, §
5.
Unless indicated otherwise, Missouri statutory and
constitutional citations are to the electronic database
published by the Missouri Revisor of Statutes, Cum.
Supp. 2018, as of July 14, 2019. The link or hyperlink
is not listed pursuant to Rule 103.04(b). Unless
otherwise indicated, all other citations are to
LexisNexis 2019.
4 Page numbers are at the bottom, in Microsoft Word,
and appear in brackets {} herein.
3

228a

“No original remedial writ shall be issued
by an appellate court in any case wherein
adequate relief can be afforded by an appeal or
by application for such writ to a lower court.”
Rule 84.22(a).
“In
most
instances
where
an
extraordinary writ is sought, this court does
decline to consider the application if not
previously made to a lower court in accordance
with Rule 84.22.” State ex rel. Roberts v.
Buckley, 533 S.W.2d 551, 553 (Mo. banc 1976).
The supreme court shall have
exclusive appellate jurisdiction in
all cases involving the validity of a
treaty or statute of the United
States, or of a statute or provision
of the constitution of this state, the
construction of the revenue laws of
this state, the title to any state
office and in all cases where the
punishment imposed is death. The
{2}
court of appeals shall have general
appellate jurisdiction in all cases
except those within the exclusive
jurisdiction of the supreme court.
Mo. Const. art. V, § 3.
“In all cases of final judgment rendered
upon any indictment or information, an appeal
to the proper appellate court shall be allowed to
the defendant, provided, . . . .” Section 547.070.
An appeal is not an option because Respondent’s
order summarily denying Relator’s amended
motion to dismiss is not a judgment under Rule

229a

74.01. See Rule 74.01 (stating, “[a] judgment is
entered when a writing signed by the judge and
denominated ‘judgment’ or ‘decree’ is filed.). “An
original action filed in a court lacking
jurisdiction or venue shall be transferred to the
appropriate court.” Mo. Const. art. V, § 11.
Thus, absent an opinion on point
interpreting Rule 84.22 in the context of Mo.
Const. art. V, § 3, Relator petitions the Court for
a writ of prohibition.
STATEMENT OF THE FACTS 5
On January 5, 2018, the State filed a
Complaint against Relator. See exhibit A. On
January 31, 2018, undersigned counsel filed his
entry of appearance. See exhibit T. On July 31,
2018, the State filed an Information
{3}
against Relator. See exhibit B. The charge
against Relator is “the class C felony of
trafficking in the second degree[]” based on the
possession of a certain amount of marijuana. See
exhibits A and B.
On November 6, 2018, the Missouri
Constitution was amended with an initiative
petition to include medical marijuana that
The additional motions and exhibits that
accompanied the amended motion to dismiss are
included in this petition. Thus, the Index to Exhibits
for this petition references the amended motion to
dismiss’ table of contents, index to exhibits, exhibits,
and the amended motion to stay.
5

230a

passed as a ballot measure. See exhibit I; Mo.
Const. art. XIV. In a collateral context, Canada
– one of our two bordering nations – recently
legalized marijuana. See exhibit P.
On June 17, 2019, Relator filed an
amended motion to dismiss the charge and an
amended motion to stay. See exhibits C through
R.
Relator’s amended motion to dismiss has
three major issues and each issue presents a
question of law: whether Missouri’s medical
marijuana law (Mo. Const. art. XIV) is
preempted by the federal statute; if not, since
there is no verdict director for the statutory
criteria under section 195.017.1, whether the
Due Process Clauses, by and through Marbury v.
Madison, 5 U.S.137 (1803), may be extended
beyond rational basis review; and if so, whether
Missouri’s medical marijuana law or the medical
marijuana law of any state where it was
legislatively enacted means marijuana, because
of the word “no” in the statutory criteria, no
longer satisfies the statutory criteria and
therefore
section
195.017.2(4)(W)
is
unconstitutional. See exhibit C, pp. 6-7, major
issues.
Assuming that interpreting the word “no”
“out of the statute” does not constitute an
interpretation of the word “no,” no majority
opinion has interpreted
{4}
the word “no.” Morales v. TWA, 504 U.S. 374,
385 (1992); see exhibit C, p. 34, ground 70.

231a

The department of health and
senior services shall place a
substance in Schedule I if it finds
that the substance: (1) Has high
potential for abuse; and (2) Has no
accepted medical use in treatment
in the United States or lacks
accepted safety for use in treatment
under medical supervision.
Section 195.017.1.
The findings required for each of
the schedules are as follows: (1)
SCHEDULE I. (A) The drug or
other substance has a high
potential for abuse. (B) The drug or
other substance has no currently
accepted medical use in treatment
in the United States. (C) There is a
lack of accepted safety for use of the
drug or other substance under
medical supervision.
21 U.S.C. § 812(b)(1).
On July 1, 2019, Respondent summarily
denied Relator’s amended motion to dismiss. See
exhibit S.
RELIEF SOUGHT
Relator seeks a writ of prohibition 1)
vacating Respondent’s July 1, 2019 order
summarily denying Relator’s amended motion to
dismiss and 2) ordering Respondent to grant
Relator’s amended motion to dismiss.
{5}

232a

STATEMENT OF THE REASONS WHY THE
WRIT SHOULD ISSUE
A writ of prohibition is appropriate:
(1) to prevent the usurpation of
judicial power when a lower court
lacks authority or jurisdiction; (2)
to remedy an excess of authority,
jurisdiction or abuse of discretion
where the lower court lacks the
power to act as intended; or (3)
where a party may suffer
irreparable harm if relief is not
granted.
State ex rel. Strauser v. Martinez, 416 S.W.3d
798, 801 (Mo. banc 2014) (internal citation
omitted). “Prohibition will lie when there is an
important question of law decided erroneously
that would otherwise escape review by this
Court, and the aggrieved party may suffer
considerable hardship and expense as a
consequence of the erroneous decision.” State ex
rel. Chassaing v. Mummert, 887 S.W.2d 573, 577
(Mo. banc 1994) (internal citation omitted).
“Interlocutory review of trial court error by writ
of prohibition, however, should occur only in
extraordinary circumstances. If the error is one
of law, and reviewable on appeal, a writ of
prohibition is not appropriate.” Id. (internal
citations omitted).

Question of law

The issues presented are questions of law.
See exhibit C, pp. 6-7, major issues.

233a

Important

The three major issues seem to be issues
of first impression not only for Missouri, but the
entire nation, and as such, would seem to qualify
as important
{6}
under Chassaing. Id.; State ex rel. Chassaing v.
Mummert, 887 S.W.2d 573, 577 (Mo. banc 1994)
(internal citation omitted). And it has not been
one year since the Missouri voters passed
medical marijuana. See exhibit I.

Escape review

“In a direct appeal of a guilty plea, our
review is restricted to the subject-matter
jurisdiction of the trial court and the sufficiency
of the information or indictment.” State v. Sharp,
39 S.W.3d 70, 72 (Mo. App. E.D. 2001) (internal
citations omitted). “On direct appeal we review
the trial court ‘“for prejudice, not mere error, and
will reverse only if the error was so prejudicial
that it deprived the defendant of a fair trial.”’
State v. Tokar, 918 S.W.2d 753, 761 (Mo. banc
1996) (citation omitted).” State v. Morrow, 968
S.W.2d 100, 106 (Mo. banc 1998).
Regarding a guilty plea, Relator’s three
major issues do not involve either “the subjectmatter jurisdiction of the trial court [or] the
sufficiency of the information[.]” State v. Sharp,
39 S.W.3d 70, 72 (Mo. App. E.D. 2001) (internal
citations omitted); see exhibit C, pp. 6-7, major
issues.
Regarding a jury trial and the standard of
review’s concern for a fair trial, if, on appeal,
Relator’s amended motion to dismiss should

234a

have been granted, that is not error that would
have “deprived [Relator] of a fair trial[,]” the
remedy for which would be a retrial – that is
error that Relator should never have had to
stand trial in the first place. State v. Morrow,
968 S.W.2d 100, 106 (Mo. banc 1998) (internal
citation omitted); Id. (internal citation omitted)
(internal quotation marks omitted). Further, a
retrial could not provide adequate relief because
the fact still
{7}
remains that the jury would not decide Relator’s
questions of law and there is no verdict director
for section 195.017.1. See exhibit C, pp. 21-26,
second major issue and pp. 29-31, third major
issue, whether to reach the merits (each
addressing the arguments and reasoning that
defer to the legislature).

Suffer

The operative word is “may” not “shall.”
Caselaw does not state, “[a] writ of prohibition is
appropriate: . . . (3) where a party [shall] suffer
irreparable harm if relief is not granted.” State
ex rel. Strauser v. Martinez, 416 S.W.3d 798, 801
(Mo. banc 2014) (internal citation omitted); see
also State ex rel. Chassaing v. Mummert, 887
S.W.2d 573, 577 (Mo. banc 1994) (internal
citation omitted) (not stating, “the aggrieved
party [shall] suffer considerable hardship and
expense as a consequence of the erroneous
decision.”).
Even assuming arguendo that
Relator was found not guilty, Relator would still
have suffered the hardship and expense of
having to stand trial when, according to his

235a

amended motion to dismiss, he should never
have had to stand trial in the first place. State
ex rel. Chassaing v. Mummert, 887 S.W.2d 573,
577 (Mo. banc 1994) (internal citation omitted).
WHEREFORE, Relator petitions the
Court for a writ of prohibition regarding
Respondent’s July 1, 2019 order summarily
denying Relator’s amended motion to dismiss.
Respectfully submitted,

{8}

/s/ Lou Horwitz
__________________________
Louis Horwitz, Mo Bar No. 56155
Attorney for Relator
1 Mid Rivers Mall Drive, Suite 280
St. Peters, MO 63376
Tel: 636-279-1532
Fax: 636-279-1632
Email: LouHorwitzLLC@att.net
Certificate of Service
I certify that on this 17th day of July, 2019, a
true copy of the above and foregoing was
electronically filed with the Clerk of the Court
via the Missouri eFiling System and served via
electronic mail to the parties and attorneys listed
below.
The Honorable Michael Wright,
Associate Circuit Judge

236a

12th Judicial Circuit
Warren County Courthouse
104 West Main St.
Warrenton, MO 63383
Tel: 636-456-3375
Fax: 636-456-2422
Email: michael.wright@courts.mo.gov
Kelly King, Prosecuting Attorney
Warren County Prosecuting Attorney’s office
104 West Main St., Suite E
Warrenton, MO 63383
Tel: 636-456-7024
Fax: 636-456-5285
Email: kelly.king@prosecutors.mo.gov
/s/ Lou Horwitz
__________________________
Louis Horwitz

{9}

237a

Appendix V
Index to Exhibits for Petition for Writ of
Prohibition in the Missouri Court of Appeals,
Eastern District
[El]ectronically Filed – EASTERN DISTRICT
CT OF APPEALS – July 17, 2019 – 11:16 AM 1
IN THE
MISSOURI COURT OF APPEALS
EASTERN DISTRICT
STATE OF MISSOURI ex rel.
DARRIN LAMASA,
Relator,
v.
THE HONORABLE MICHAEL
WRIGHT, Associate Circuit Judge,
12th Judicial Circuit, Warren
County, Missouri,
Respondent.

)
)
)
)
)
)
)
)

Cause No. ED108054 2
(Re: Warren County Case 18BB-CR00013-01)

Said electronic filing information appears
vertically along the right side of all pages beginning
at the top and in light blue lettering.
2 Said case number appears at the top-right of the
first page and to the left of electronic filing
information.
1

238a

Exhibit
A
B
C
D
E
F
G
H
I
J
K
L
M
N
O

INDEX TO EXHIBITS 3
Description
Page Number
Complaint
1
Information
2
Amended motion to dismiss
3
Table of Contents
55
Index to Exhibits
58
Jurisdiction
60
Standing
66
Missouri’s Pre-CSA drug laws 71
November 6, 2018
election information
85
States with legalized
medical marijuana
91
States that legislatively
enacted medical marijuana
93
Missouri’s caselaw
94
Additional caselaw
104
Irrelevant caselaw
131
Legislative history excerpts
133

Excluding exhibit S, which is a certified copy, each
exhibit is a true and accurate copy. Relator’s social
security number and date of birth have been redacted
in exhibits A and B. Exhibits F through Q are the
exhibits in the amended motion to dismiss and said
exhibits have updated handwritten page numbers.
Exhibits D, E, and R are separate motions that relate
to the amended motion to dismiss and were filed on
the same day. Exhibits H and I have a table of
contents. Exhibits C and M are submitted in parts.
This Index, including the certificate of service,
consists of three pages.
3

239a

Exhibit
P
Q
R
S

T

Description

Page Number

Wall Street Journal
article: Canada’s
legalization
Warren County Record
article: Treatment similar
to alcohol
Relator’s amended motion
to stay
Certified copy of the
docket sheet for
Respondent’s
July 1, 2019 order
Entry of Appearance

144
145
147

150
152

Respectfully submitted,
/s/ Lou Horwitz
__________________________
Louis Horwitz, Mo Bar No. 56155
Attorney for Relator
1 Mid Rivers Mall Drive, Suite 280
St. Peters, MO 63376
Tel: 636-279-1532
Fax: 636-279-1632
Email: LouHorwitzLLC@att.net
Certificate of Service
I certify that on this 17th day of July, 2019, a
true copy of the above and foregoing was
electronically filed with the Clerk of the Court

240a

via the Missouri eFiling System and served via
electronic mail to the parties and attorneys listed
below.
The Honorable Michael Wright,
Associate Circuit Judge
12th Judicial Circuit
Warren County Courthouse
104 West Main St.
Warrenton, MO 63383
Tel: 636-456-3375
Fax: 636-456-2422
Email: michael.wright@courts.mo.gov
Kelly King, Prosecuting Attorney
Warren County Prosecuting Attorney’s office
104 West Main St., Suite E
Warrenton, MO 63383
Tel: 636-456-7024
Fax: 636-456-5285
Email: kelly.king@prosecutors.mo.gov
/s/ Lou Horwitz
__________________________
Louis Horwitz

241a

Appendix W
[El]ectronically Filed – EASTERN DISTRICT
CT OF APPEALS – July 17, 2019 – 11:16 AM 1
IN THE
MISSOURI COURT OF APPEALS
EASTERN DISTRICT
STATE OF MISSOURI ex rel.
DARRIN LAMASA,
Relator
v.
THE HONORABLE MICHAEL
WRIGHT, Associate Circuit Judge,
12th Judicial Circuit, Warren
County, Missouri,
Respondent.

)
)
)
)
)
)
)
)

Cause No. ED108054 2
(Re: Warren County Case 18BB-CR00013-01)
SUGGESTIONS IN SUPPORT
Relator is not aware of any published
opinions since June 17, 2019 – the date the
amended motion to dismiss was filed with the
Said electronic filing information appears
vertically along the right side of all pages beginning
at the top and in light blue lettering.
2 Said case number appears at the top-right of the
first page and to the left of electronic filing
information.
1

242a

trial court – that materially address the issues
and therefore Relator has no suggestions in
support.
Respectfully submitted,
/s/ Lou Horwitz
__________________________
Louis Horwitz, Mo Bar No. 56155
Attorney for Relator
1 Mid Rivers Mall Drive, Suite 280
St. Peters, MO 63376
Tel: 636-279-1532
Fax: 636-279-1632
Email: LouHorwitzLLC@att.net
{1} 3
Certificate of Service
I certify that on this 17th day of July, 2019, a
true copy of the above and foregoing was
electronically filed with the Clerk of the Court
via the Missouri eFiling System and served via
electronic mail to the parties and attorneys listed
below.
The Honorable Michael Wright,
Associate Circuit Judge
12th Judicial Circuit
Warren County Courthouse
Page numbers are at the bottom, in Microsoft Word,
and appear in brackets {} herein.
3

243a

104 West Main St.
Warrenton, MO 63383
Tel: 636-456-3375
Fax: 636-456-2422
Email: michael.wright@courts.mo.gov
Kelly King, Prosecuting Attorney
Warren County Prosecuting Attorney’s office
104 West Main St., Suite E
Warrenton, MO 63383
Tel: 636-456-7024
Fax: 636-456-5285
Email: kelly.king@prosecutors.mo.gov
/s/ Lou Horwitz
__________________________
Louis Horwitz

{2}

244a

Appendix X
[El]ectronically Filed – EASTERN DISTRICT
CT OF APPEALS – July 17, 2019 – 12:35 PM 1
IN THE
MISSOURI COURT OF APPEALS
EASTERN DISTRICT
STATE OF MISSOURI ex rel.
DARRIN LAMASA,
Relator
v.
THE HONORABLE MICHAEL
WRIGHT, Associate Circuit Judge,
12th Judicial Circuit, Warren
County, Missouri,
Respondent.

)
)
)
)
)
)
)
)

Cause No.
(Re: Warren County Case 18BB-CR00013-01)
MOTION TO STAY
COMES NOW Relator, by and through
undersigned counsel, and requests the Court
issue an order staying all proceedings in 18BBCR00013-01 until Relator’s petition for writ of
prohibition is decided. As grounds, Relator
states the following:
Said electronic filing information appears
vertically along the right side of all pages beginning
at the top and in light blue lettering.
1

245a

1. On November 6, 2018, the Missouri
Constitution was amended with an initiative
petition to include medical marijuana that
passed as a ballot measure. See petition for writ
of prohibition (“petition”), exhibit I; Mo. Const.
art. XIV.
2. Relator is charged with “the class C
felony of trafficking in the second degree[]” based
on the possession of a certain amount of
marijuana. See petition, exhibit B.
3. Relator claims section 195.017.2(4)(w)
(i.e, marijuana’s statutory codification as a
Schedule I controlled substance) is not valid
under the Due Process
{1} 2
Clauses. See petition, exhibits C through Q.
4.
Relator’s three major issues are
questions of law and seem to be issues of first
impression not only for Missouri, but the entire
nation. See petition, exhibit C, pp. 6-7, major
issues.
5. Relator submits his questions of law
will escape review. See petition, statement of the
reasons why the writ should issue.
6. Relator requested a stay from the trial
court. See petition, exhibit R.
7. The trial court passed Relator’s request
for a stay to August 8, 2019. See petition, exhibit
S.
WHEREFORE, Relator requests the
Court issue an order staying all proceedings in
Page numbers are at the bottom, in Microsoft Word,
and appear in brackets {} herein.
2

246a

18BB-CR00013-01 until Relator’s petition for
writ of prohibition is decided.
Respectfully submitted,
/s/ Lou Horwitz
__________________________
Louis Horwitz, Mo Bar No. 56155
Attorney for Relator
1 Mid Rivers Mall Drive, Suite 280
St. Peters, MO 63376
Tel: 636-279-1532
Fax: 636-279-1632
Email: LouHorwitzLLC@att.net
Certificate of Service
I certify that on this 17th day of July, 2019, a
true copy of the above and foregoing was
electronically filed with the Clerk of the Court
via the Missouri eFiling System and served via
electronic mail to the parties and attorneys listed
below.
{2)
The Honorable Michael Wright,
Associate Circuit Judge
12th Judicial Circuit
Warren County Courthouse
104 West Main St.
Warrenton, MO 63383
Tel: 636-456-3375

247a

Fax: 636-456-2422
Email: michael.wright@courts.mo.gov
Kelly King, Prosecuting Attorney
Warren County Prosecuting Attorney’s office
104 West Main St., Suite E
Warrenton, MO 63383
Tel: 636-456-7024
Fax: 636-456-5285
Email: kelly.king@prosecutors.mo.gov
/s/ Lou Horwitz
__________________________
Louis Horwitz

{3}

248a

Appendix Y
IN THE
MISSOURI COURT OF APPEALS
EASTERN DISTRICT 1
STATE OF MISSOURI EX REL.
DARRIN LAMASA, RELATOR,
vs.
THE HONORABLE MICHAEL WRIGHT,
ASSOCIATE CIRCUIT JUDGE, 12TH
JUDICIAL CIRCUIT, WARREN
COUNTY, MISSOURI, RESPONDENT.

)
)
)
)
)
)
)
)
)

No. ED108054
Writ of Prohibition
WARREN COUNTY CIRCUIT COURT
Cause No. 18BB-CR00013-01
ORDER
Relator has filed a Petition for Writ of
Prohibition along with Suggestions in Support
and Exhibits.

On top appears small image of the state seal; in topright corner appears the word “SCANNED”; and in
bottom-right corner appears the seal.
1

249a

Being duly advised in the premises, the
Court hereby DENIES Relator’s Motion for Stay
and DENIES Relator’s Petition for Writ of
Prohibition.
SO ORDERED.
DATED: 7/19/19
/s/
__________________________
Gary M. Gaertner, Jr.,
Presiding Judge
Writ Division II
Missouri Court of Appeals,
Eastern District
cc:

Hon. Michael S. Wright
Kelly King
Louis Horwitz

250a

Appendix Z
[El]ectronically Filed – SUPREME COURT OF
MISSOURI – July 29, 2019 – 09:59 AM1
IN THE
MISSOURI SUPREME COURT
STATE OF MISSOURI ex rel.
DARRIN LAMASA,
Relator,
v.
THE HONORABLE MICHAEL
WRIGHT, Associate Circuit Judge,
12th Judicial Circuit, Warren
County, Missouri,
Respondent.

)
)
)
)
)
)
)
)

Cause No. SC98024 2
(Re: Warren County Case 18BB-CR00013-01)
PETITION FOR WRIT OF PROHIBITION
COMES NOW Darrin Lamasa, Relator, by
and through undersigned counsel, pursuant to
Supreme Court Rule 97, and petitions the Court
for a writ of prohibition regarding Respondent’s
Said electronic filing information appears
vertically along the right side of all pages beginning
at the top and in light blue lettering.
2 Said case number appears at the top-right of the
first page and to the left of electronic filing
information.
1

251a

July 1, 2019 order summarily denying Relator’s
amended motion to dismiss that claims section
195.017.2(4)(w) (i.e., marijuana’s statutory
codification as a Schedule I controlled substance)
is not valid under the Due Process Clauses. 3
{1} 4
STATEMENT OF JURISDICTION
“The supreme court and districts of the
court of appeals may issue and determine
original remedial writs.” Mo. Const. art. V, § 4.1.
“No original remedial writ shall be issued by an
appellate court in any case wherein adequate
relief can be afforded by an appeal or by
application for such writ to a lower court.” Rule
84.22(a). “In all cases of final judgment rendered
upon any indictment or information, an appeal
to the proper appellate court shall be allowed to
the defendant, provided, . . . .” Section 547.070.
An appeal is not an option because
Respondent’s July 1, 2019 order summarily
denying Relator’s amended motion to dismiss is
not a judgment under Rule 74.01. See Rule 74.01
Unless indicated otherwise, Missouri statutory and
constitutional citations are to the electronic database
published by the Missouri Revisor of Statutes, Cum.
Supp. 2018, as of July 25, 2019. The link or hyperlink
is not listed pursuant to Rule 103.04(b). Unless
otherwise indicated, all other citations are to
LexisNexis 2019.
4 Page numbers are at the bottom, in Microsoft Word,
and appear in brackets {} herein.
3

252a

(stating, “[a] judgment is entered when a writing
signed by the judge and denominated ‘judgment’
or ‘decree’ is filed.”).
On July 17, 2019, Relator filed a petition
for writ of prohibition and a motion to stay in the
Missouri Court of Appeals, Eastern District. See
exhibits V and Y, respectively. Said petition’s
case number is ED108054. See exhibit V or
exhibit Z. On July 19, 2019, the Eastern District
summarily denied Relator’s petition. See exhibit
Z.
In summarily denying, the Eastern
District also opted not to address a question of
law that Relator presented in his statement of
jurisdiction. In this particular context, this
question of law is not one for a trial court.
Believing the issue to be legitimate and in
keeping with the spirit of the law whereby not
raising
{2}
the issue could mean that Relator has waived the
issue, Relator presents the issue should the
Court deem it appropriate to provide guidance on
this question of law.

Question of law presented to the Eastern District
When a Relator petitions for an “original
remedial writ” and “adequate relief can be
afforded . . . by application for such writ to a
lower court[,]” but the petition “involv[es] the
validity . . . of a statute[,]” does Rule 84.22
operate as an exception to Mo. Const. art. V, § 3?

253a

Rule 84.22, Id.; Mo. Const. art. V, § 3; see exhibit
V, statement of jurisdiction.
The supreme court shall have
exclusive appellate jurisdiction in
all cases involving the validity of a
treaty or statute of the United
States, or of a statute or provision
of the constitution of this state, the
construction of the revenue laws of
this state, the title to any state
office and in all cases where the
punishment imposed is death. The
court of appeals shall have general
appellate jurisdiction in all cases
except those within the exclusive
jurisdiction of the supreme court.
Mo. Const. art. V, § 3; see exhibit V, statement of
jurisdiction.
“In
most
instances
where
an
extraordinary writ is sought, this court does
decline to consider the application if not
previously made to a lower court in accordance
with Rule 84.22.” State ex rel. Roberts v.
Buckley, 533 S.W.2d 551, 553 (Mo. banc 1976);
see exhibit V, statement of jurisdiction.
Relator is not aware of an opinion on point
interpreting Rule 84.22 in the context of Mo.
Const. art. V, § 3.
{3}

254a

STATEMENT OF THE FACTS 5
On January 5, 2018, the State filed a
Complaint against Relator. See exhibit A. On
January 31, 2018, undersigned counsel filed his
entry of appearance. See exhibit T. On July 31,
2018, the State filed an Information against
Relator. See exhibit B. The charge against
Relator is “the class C felony of trafficking in the
second degree[]” based on the possession of a
certain amount of marijuana. See exhibits A and
B.
On November 6, 2018, the Missouri
Constitution was amended with an initiative
petition to include medical marijuana that
passed as a ballot measure. See exhibit I; Mo.
Const. art. XIV. In a collateral context, Canada
– one of our two bordering nations – recently
legalized marijuana. See exhibit P.
On June 17, 2019, Relator filed an
amended motion to dismiss the charge and an
amended motion to stay. See exhibits C through
R.
Relator’s amended motion to dismiss has
three major issues and each issue presents a
question of law: whether Missouri’s medical
marijuana law (Mo. Const. art. XIV) is
preempted by the federal statute; if not, since
there is no verdict director for the statutory
This petition includes, as exhibits, the additional
motions (e.g., table of contents) and exhibits that
accompanied the amended motion to dismiss and are
so indicated in the Index to Exhibits.

5

255a

criteria under section 195.017.1, whether the
Due Process Clauses, by and through Marbury v.
Madison, 5 U.S.137 (1803), may be extended
{4}
beyond rational basis review; and if so, whether
Missouri’s medical marijuana law or the medical
marijuana law of any state where it was
legislatively enacted means marijuana, because
of the word “no” in the statutory criteria, no
longer satisfies the statutory criteria and
therefore
section
195.017.2(4)(W)
is
unconstitutional. See exhibit C, pp. 6-7, major
issues.
Assuming that interpreting the word “no”
“out of the statute” does not constitute an
interpretation of the word “no,” no majority
opinion has interpreted the word “no.” Morales
v. TWA, 504 U.S. 374, 385 (1992); see exhibit C,
p. 34, ground 70.
The department of health and
senior services shall place a
substance in Schedule I if it finds
that the substance: (1) Has high
potential for abuse; and (2) Has no
accepted medical use in treatment
in the United States or lacks
accepted safety for use in treatment
under medical supervision.
Section 195.017.1.
The findings required for each of
the schedules are as follows: (1)
SCHEDULE I. (A) The drug or
other substance has a high
potential for abuse. (B) The drug or

256a

other substance has no currently
accepted medical use in treatment
in the United States. (C) There is a
lack of accepted safety for use of the
drug or other substance under
medical supervision.
21 U.S.C. § 812(b)(1).

{5}
On July 1, 2019, Respondent summarily
denied Relator’s amended motion to dismiss. See
exhibit S.
On July 17, 2019, Relator filed a petition
for writ of prohibition and a motion to stay in the
Missouri Court of Appeals, Eastern District. See
exhibits V and Y, respectively. On July 19, 2019,
the Eastern District summarily denied Relator’s
petition. See exhibit Z.
RELIEF SOUGHT
Relator seeks a writ of prohibition 1)
vacating Respondent’s July 1, 2019 order
summarily denying Relator’s amended motion to
dismiss and 2) ordering Respondent to grant
Relator’s amended motion to dismiss.
STATEMENT OF THE REASONS WHY THE
WRIT SHOULD ISSUE
A writ of prohibition is appropriate:
(1) to prevent the usurpation of
judicial power when a lower court
lacks authority or jurisdiction; (2)
to remedy an excess of authority,

257a

jurisdiction or abuse of discretion
where the lower court lacks the
power to act as intended; or (3)
where a party may suffer
irreparable harm if relief is not
granted.
State ex rel. Strauser v. Martinez, 416 S.W.3d
798, 801 (Mo. banc 2014) (internal citation
omitted). “Prohibition will lie when there is an
important question of law decided erroneously
that would otherwise escape review by this
Court, and the aggrieved party may suffer
considerable hardship and expense as a
consequence of the erroneous decision.” State ex
rel. Chassaing v. Mummert, 887 S.W.2d 573, 577
(Mo. banc 1994) (internal citation omitted).
“Interlocutory review of trial
{6}
court error by writ of prohibition, however,
should
occur
only
in
extraordinary
circumstances. If the error is one of law, and
reviewable on appeal, a writ of prohibition is not
appropriate.” Id. (internal citations omitted).

Question of law

The issues presented are questions of law.
See exhibit C, pp. 6-7, major issues.

Important

The three major issues seem to be issues
of first impression not only for Missouri, but the
entire nation, and as such, would seem to qualify
as important under Chassaing. Id.; State ex rel.
Chassaing v. Mummert, 887 S.W.2d 573, 577
(Mo. banc 1994) (internal citation omitted). And

258a

it has not been one year since the Missouri voters
passed medical marijuana. See exhibit I.

Escape review

“In a direct appeal of a guilty plea, our
review is restricted to the subject-matter
jurisdiction of the trial court and the sufficiency
of the information or indictment.” State v. Sharp,
39 S.W.3d 70, 72 (Mo. App. E.D. 2001) (internal
citations omitted). “On direct appeal we review
the trial court ‘“for prejudice, not mere error, and
will reverse only if the error was so prejudicial
that it deprived the defendant of a fair trial.”’
State v. Tokar, 918 S.W.2d 753, 761 (Mo. banc
1996) (citation omitted).” State v. Morrow, 968
S.W.2d 100, 106 (Mo. banc 1998).
Regarding a guilty plea, Relator’s three
major issues do not involve either “the subjectmatter jurisdiction of the trial court [or] the
sufficiency of the
{7}
information[.]” State v. Sharp, 39 S.W.3d 70, 72
(Mo. App. E.D. 2001) (internal citations omitted);
see exhibit C, pp. 6-7, major issues.
Regarding a jury trial and the standard of
review’s concern for a fair trial, if, on appeal,
Relator’s amended motion to dismiss should
have been granted, that is not error that would
have “deprived [Relator] of a fair trial[,]” the
remedy for which would be a retrial – that is
error that Relator should never have had to
stand trial in the first place. State v. Morrow,
968 S.W.2d 100, 106 (Mo. banc 1998) (internal
citation omitted); Id. (internal citation omitted)
(internal quotation marks omitted). Further, a

259a

retrial could not provide adequate relief because
the fact still remains that the jury would not
decide Relator’s questions of law and there is no
verdict director for section 195.017.1. See exhibit
C, pp. 6-7, major issues and pp. 29-31, third
major issue, whether to reach the merits
(addressing the arguments and reasoning that
defer to the legislature).

Suffer

The operative word is “may” not “shall.”
Caselaw does not state, “[a] writ of prohibition is
appropriate: . . . (3) where a party [shall] suffer
irreparable harm if relief is not granted.” State
ex rel. Strauser v. Martinez, 416 S.W.3d 798, 801
(Mo. banc 2014) (internal citation omitted); see
also State ex rel. Chassaing v. Mummert, 887
S.W.2d 573, 577 (Mo. banc 1994) (internal
citation omitted) (not stating, “the aggrieved
party [shall] suffer considerable hardship and
expense as a consequence of the erroneous
decision.”).
Even assuming arguendo that
Relator was found not guilty, Relator would still
have suffered the hardship and expense
{8}
of having to stand trial when, according to his
amended motion to dismiss, he should never
have had to stand trial in the first place. State
ex rel. Chassaing v. Mummert, 887 S.W.2d 573,
577 (Mo. banc 1994) (internal citation omitted).
WHEREFORE, Relator petitions the
Court for a writ of prohibition regarding
Respondent’s July 1, 2019 order summarily
denying Relator’s amended motion to dismiss.

260a

Respectfully submitted,
/s/ Lou Horwitz
__________________________
Louis Horwitz, Mo Bar No. 56155
Attorney for Relator
1 Mid Rivers Mall Drive, Suite 280
St. Peters, MO 63376
Tel: 636-279-1532
Fax: 636-279-1632
Email: LouHorwitzLLC@att.net
Certificate of Service
I certify that on this 29th day of July, 2019, a
true copy of the above and foregoing was
electronically filed with the Clerk of the Court
via the Missouri eFiling System and served via
electronic mail to the parties and attorneys listed
below.
The Honorable Michael Wright,
Associate Circuit Judge
12th Judicial Circuit
Warren County Courthouse
104 West Main St.
Warrenton, MO 63383
Tel: 636-456-3363
Fax: 636-456-2422
Email: michael.wright@courts.mo.gov
Kelly King, Prosecuting Attorney

{9}

261a

Warren County Prosecuting Attorney’s office
104 West Main St., Suite E
Warrenton, MO 63383
Tel: 636-456-7024
Fax: 636-456-5285
Email: kelly.king@prosecutors.mo.gov
/s/ Lou Horwitz
__________________________
Louis Horwitz

{10}

262a

Appendix AA
Index to Exhibits for Petition for Writ of
Prohibition in the Missouri Supreme Court
[El]ectronically Filed – SUPREME COURT OF
MISSOURI – July 29, 2019 – 09:59 AM1
IN THE
MISSOURI SUPREME COURT
STATE OF MISSOURI ex rel.
DARRIN LAMASA,
Relator,
v.
THE HONORABLE MICHAEL
WRIGHT, Associate Circuit Judge,
12th Judicial Circuit, Warren
County, Missouri,
Respondent.

)
)
)
)
)
)
)
)

Cause No. SC98024 2
(Re: Warren County Case 18BB-CR00013-01)
INDEX TO EXHIBITS
Preamble
Said electronic filing information appears
vertically along the right side of all pages beginning
at the top and in light blue lettering.
2 Said case number appears at the top-right of the
first page and to the left of electronic filing
information.
1

263a

Excluding exhibit S, which is a certified
copy, each exhibit is a true and accurate copy.
Relator’s social security number and date of
birth have been redacted in exhibits A and B.
Exhibits F through Q are the exhibits in the
amended motion to dismiss and said exhibits
have updated handwritten page numbers.
Exhibits F through Q were filed in the petition to
the Eastern District. See exhibit X. In addition,
exhibits F through Q filed in the Eastern District
are not filed in this petition because that would
result in two copies of the same exhibit. Exhibits
D, E, and R are separate motions that relate to
the amended motion to dismiss and were filed on
the same day. Exhibits H and I have a table of
contents. Exhibits C and M are submitted in
parts. This Index, including the certificate of
service, consists of four pages.
Exhibit
A
B
C
D
E
F
G
H
I
J
K

Description
Page Number
Complaint
1
Information
2
Amended motion to dismiss
3
Table of contents
55
Index to exhibits
58
Jurisdiction
60
Standing
66
Missouri’s pre-CSA drug laws 71
November 6, 2018
election information
85
States with legalized
medical marijuana
91
States that legislatively
enacted medical marijuana
93

264a

Exhibit
L
M
N
O
P
Q
R
S

T
U
V
W
X
Y
Z

Description
Page Number
Missouri’s caselaw
94
Additional caselaw
104
Irrelevant caselaw
131
Legislative history excerpts
133
Wall Street Journal article:
Canada’s legalization
144
Warren County Record
article: Treatment similar
to alcohol
145
Relator’s amended
motion to stay
147
Certified copy of
the docket sheet
For Respondent’s
July 1, 2019 order
150
Entry of appearance
152
Writ summary –
Eastern District (“ED”)
153
Writ petition – ED
155
Writ suggestions – ED
164
Writ index to exhibits – ED
166
Motion to stay – ED
169
ED’s 7/19/19 order
172
Respectfully submitted,
/s/ Lou Horwitz
__________________________
Louis Horwitz, Mo Bar No. 56155
Attorney for Relator
1 Mid Rivers Mall Drive, Suite 280
St. Peters, MO 63376

265a

Tel: 636-279-1532
Fax: 636-279-1632
Email: LouHorwitzLLC@att.net
Certificate of Service
I certify that on this 29th day of July, 2019, a
true copy of the above and foregoing was
electronically filed with the Clerk of the Court
via the Missouri eFiling System and served via
electronic mail to the parties and attorneys listed
below.
The Honorable Michael Wright,
Associate Circuit Judge
12th Judicial Circuit
Warren County Courthouse
104 West Main St.
Warrenton, MO 63383
Tel: 636-456-3363
Fax: 636-456-2422
Email: michael.wright@courts.mo.gov
Kelly King, Prosecuting Attorney
Warren County Prosecuting Attorney’s office
104 West Main St., Suite E
Warrenton, MO 63383
Tel: 636-456-7024
Fax: 636-456-5285
Email: kelly.king@prosecutors.mo.gov
/s/ Lou Horwitz
__________________________
Louis Horwitz

266a

Appendix BB
[El]ectronically Filed – SUPREME COURT OF
MISSOURI – July 29, 2019 – 09:59 AM1
IN THE
MISSOURI SUPREME COURT
STATE OF MISSOURI ex rel.
DARRIN LAMASA,
Relator,
v.
THE HONORABLE MICHAEL
WRIGHT, Associate Circuit Judge,
12th Judicial Circuit, Warren
County, Missouri,
Respondent.

)
)
)
)
)
)
)
)

Cause No. SC98024 2
(Re: Warren County Case 18BB-CR00013-01)
SUGGESTIONS IN SUPPORT
Since June 17, 2019 – the date the
amended motion to dismiss was filed with the
trial court – Relator is aware of one published
opinion that merits mentioning:
Said electronic filing information appears
vertically along the right side of all pages beginning
at the top and in light blue lettering.
2 Said case number appears at the top-right of the
first page and to the left of electronic filing
information.
1

267a

Commonwealth v. Jezzi, 208 A.3d 1105
(Pa. Super. Ct. 2019). 3
I. Commonwealth v. Jezzi, 208 A.3d 1105
(Pa. Super. Ct. 2019) is marginally relevant to
Relator’s first major issue but otherwise should
be deemed irrelevant because, yet again, it is
another majority opinion that does
not interpret the word “no” and also involved
equal protection.
{1} 4
See exhibit C, pp. 6-7, major issues; see also
exhibits L and M.
The context was an appeal of “two counts
of possession with intent to deliver marijuana
(‘PWID’), and one count each of possession of
marijuana
and
possession
of
drug
paraphernalia.”
Jezzi at opening sentence
(internal footnote omitted).
“Appellant
argues
the
criminal
prohibition of marijuana as a Schedule I
controlled substance in the CSA is irreconcilable
with [Pennsylvania’s medical marijuana act].”
Id. at between footnotes 2 and 3 and before
headnote 1.
The opinion seems to be in the process of being
published because the pagination has not been
completed for the citation based on the Bluebook.
Consequently, Relator will use headnotes, footnotes,
and parenthetical statements as an alternative way
hopefully to help locate citations or quotations.
4 Page numbers are at the bottom, in Microsoft Word,
and appear in brackets {} herein.
3

268a

Id.

Appellant
argued
that
classification is unconstitutional
because it denies substantive due
process and is not rationally related
to
a
legitimate
government
interest.
Further,
Appellant
suggested
the
Schedule
I
classification of marijuana denies
Pennsylvania
citizens
equal
protection under the law because
the CSA states marijuana has no
medical use for Pennsylvania
citizens generally but the MMA
sets up a medical marijuana
production,
distribution,
and
certification
program
for
Pennsylvania citizens who are
medical patients or medical patient
caregivers.

“Instantly, the substantive due process
section
of
Appellant's
argument
is
underdeveloped and lacks specificity on which of
Appellant's constitutional rights is violated by
the Schedule I classification of marijuana.” Id.
at between headnotes 2 and 3 and before footnote
4. “Accordingly, Appellant waived his
{2}
claim regarding the deprivation of substantive
due process.” Id. (internal citation omitted).
Based upon the foregoing, we hold
that the CSA and the MMA can be
read in harmony and given full
effect, where the MMA was not

269a

intended to remove marijuana from
the list of Schedule I substances
under the CSA; the MMA was
intended to provide a controlled
program for lawful access to
medical marijuana under specific
circumstances and criteria for
special medical needs.
Id. at ending paragraph.
“Regarding Appellant's equal protection
challenge, we first observe that medical
marijuana is not listed in the CSA as a Schedule
I substance, only marijuana is listed. The MMA
provides a very limited and controlled vehicle for
the legal use of medical marijuana by persons
qualified under the MMA.” Id. at immediately
preceding and following headnote 16 (internal
citation omitted).
“We also hold the CSA
Schedule I classification of marijuana does not
violate equal protection on the ground that it
treats similarly situated citizens disparately.”
Id. at ending paragraph.

Argument

One, regarding Relator’s first major issue
(preemption), even though preemption was not
specifically discussed and Pennsylvania’s
medical marijuana act was not preempted, the
appellant essentially attempted to have the CSA
preempted by state law. Id. at ending paragraph
(stating, “we hold that the CSA
{3}
and the MMA can be read in harmony and given
full effect[.]”); Id. at between footnotes 2 and 3
and before headnote 1 (stating, “[a]ppellant

270a

argues the criminal prohibition of marijuana as
a Schedule I controlled substance in the CSA is
irreconcilable with [Pennsylvania’s medical
marijuana act].”); see exhibit C, p. 6, first major
issue.
In addition, the opinion does not mention
the Raich court’s statement, “marijuana [is]
contraband for any purpose[.]” Gonzales v.
Raich, 545 U.S. 1, 27 (2005); see also exhibit C,
p. 19.
Two, in comparison, Relator’s substantive
due process claim is quite developed. Jezzi at
between headnotes 2 and 3 and before footnote 4
(stating, “the substantive due process section of
Appellant's argument is underdeveloped and
lacks specificity on which of Appellant's
constitutional rights is violated by the Schedule
I classification of marijuana.”); see exhibit C, pp.
21-26, second major issue (demonstrating how
and why the Due Process Clauses may be
extended beyond rational basis review).
Three, equal protection does not seem
applicable. See exhibit C, p. 5, preliminary
statement 4.
Respectfully submitted,
/s/ Lou Horwitz
__________________________
Louis Horwitz, Mo Bar No. 56155
Attorney for Relator
{4}
1 Mid Rivers Mall Drive, Suite 280
St. Peters, MO 63376

271a

Tel: 636-279-1532
Fax: 636-279-1632
Email: LouHorwitzLLC@att.net
Certificate of Service
I certify that on this 29th day of July, 2019, a
true copy of the above and foregoing was
electronically filed with the Clerk of the Court
via the Missouri eFiling System and served via
electronic mail to the parties and attorneys listed
below.
The Honorable Michael Wright,
Associate Circuit Judge
12th Judicial Circuit
Warren County Courthouse
104 West Main St.
Warrenton, MO 63383
Tel: 636-456-3363
Fax: 636-456-2422
Email: michael.wright@courts.mo.gov
Kelly King, Prosecuting Attorney
Warren County Prosecuting Attorney’s office
104 West Main St., Suite E
Warrenton, MO 63383
Tel: 636-456-7024
Fax: 636-456-5285
Email: kelly.king@prosecutors.mo.gov
/s/ Lou Horwitz
__________________________
Louis Horwitz

{5}

272a

Appendix CC
[El]ectronically Filed – SUPREME COURT OF
MISSOURI – July 29, 2019 – 10:27 AM1
IN THE
MISSOURI SUPREME COURT
STATE OF MISSOURI ex rel.
DARRIN LAMASA,
Relator,
v.
THE HONORABLE MICHAEL
WRIGHT, Associate Circuit Judge,
12th Judicial Circuit, Warren
County, Missouri,
Respondent.

)
)
)
)
)
)
)
)

Cause No. SC98024 2
(Re: Warren County Case 18BB-CR00013-01)
MOTION TO STAY
COMES NOW Relator, by and through
undersigned counsel, and requests the Court
issue an order staying all proceedings in 18BBCR00013-01 until Relator’s petition for writ of
Said electronic filing information appears
vertically along the right side of all pages beginning
at the top and in light blue lettering.
2 Said case number appears at the top-right of the
first page and to the left of electronic filing
information.
1

273a

prohibition is decided. As grounds, Relator
states the following:
1. On November 6, 2018, the Missouri
Constitution was amended with an initiative
petition to include medical marijuana that
passed as a ballot measure. See petition for writ
of prohibition (“petition”), exhibit I; Mo. Const.
art. XIV.
2. Relator is charged with “the class C
felony of trafficking in the second degree[]” based
on the possession of a certain amount of
marijuana. See petition, exhibit B.
3. On June 17, 2019, Relator filed an
amended motion to dismiss that claims section
195.017.2(4)(w) (i.e, marijuana’s statutory
codification as a
{1} 3
Schedule I controlled substance) is not valid
under the Due Process Clauses. See petition,
exhibits C through Q.
4. On June 17, 2019, Relator also filed an
amended motion to stay. See petition, exhibit R.
5.
Relator’s three major issues are
questions of law – for which there are no verdict
directors – and seem to be issues of first
impression not only for Missouri, but the entire
nation. See petition, exhibit C, pp. 6-7, major
issues.
6.
On July 1, 2019, Respondent
summarily denied Relator’s amended motion to
dismiss. See petition, exhibit S.
Page numbers are at the bottom, in Microsoft Word,
and appear in brackets {} herein.
3

274a

7. Relator’s request for a stay was passed
to August 8, 2019. Id.
8. On July 17, 2109, Relator filed a
petition for writ of prohibition along with a
motion to stay in the Missouri Court of Appeals,
Eastern District.
See petition, exhibits U
through Y.
9. On July 19, 2019, the Eastern District
summarily denied Relator’s petition and motion
to stay. See petition, exhibit Z.
10. Relator submits his questions of law
will escape review, including the appellate
jurisdictional question of law that is not for a
trial court. See petition, statement of the
reasons why the writ should issue and statement
of jurisdiction (stating, “[w]hen a Relator
petitions for an ‘original remedial writ’ and
‘adequate relief can be afforded . . . by application
for such writ to a lower court[,]’ but the petition
‘involv[es] the validity . . . of a statute[,]’ does
Rule 84.22 operate as an
{2}
exception to Mo. Const. art. V, § 3?”); see also
petition, exhibit V, p. 156, statement of
jurisdiction.
WHEREFORE, Relator requests the
Court issue an order staying all proceedings in
18BB-CR00013-01 until Relator’s petition for
writ of prohibition is decided.
Respectfully submitted,

275a

/s/ Lou Horwitz
__________________________
Louis Horwitz, Mo Bar No. 56155
Attorney for Relator
1 Mid Rivers Mall Drive, Suite 280
St. Peters, MO 63376
Tel: 636-279-1532
Fax: 636-279-1632
Email: LouHorwitzLLC@att.net
Certificate of Service
I certify that on this 29th day of July, 2019, a
true copy of the above and foregoing was
electronically filed with the Clerk of the Court
via the Missouri eFiling System and served via
electronic mail to the parties and attorneys listed
below.
The Honorable Michael Wright,
Associate Circuit Judge
12th Judicial Circuit
Warren County Courthouse
104 West Main St.
Warrenton, MO 63383
Tel: 636-456-3363
Fax: 636-456-2422
Email: michael.wright@courts.mo.gov
Kelly King, Prosecuting Attorney
Warren County Prosecuting Attorney’s office
104 West Main St., Suite E
Warrenton, MO 63383

{3}

276a

Tel: 636-456-7024
Fax: 636-456-5285
Email: kelly.king@prosecutors.mo.gov
/s/ Lou Horwitz
__________________________
Louis Horwitz

{4}

277a

Appendix DD
In the Supreme Court of Missouri
September Session, 2019
State ex rel. Darrin Lamasa,
Relator,
No. SC98024
PROHIBITION
Warren County Circuit
Court No. 18BB-CR00013-01
Eastern District Court of Appeals
No. ED108054
The Honorable Michael Wright,
Respondent.

Now at this day, on consideration of the
petition for a writ of prohibition herein to the
said respondent, it is ordered by the Court here
that the said petition be, and the same is hereby
denied. Relator’s motion for stay overruled as
moot.
STATE OF MISSOURI-Sct.

I, BETSY AUBUCHON, Clerk of the
Supreme Court of the State of Missouri, certify
that the foregoing is a full, true and complete
transcript of the judgment of said Supreme
Court, entered of record at the September
Session thereof, 2019, and on the 3rd day of
September, 2019, in the above-entitled cause.

278a

WITNESS my hand and the
Seal of the Supreme Court
of Missouri, at my office in
the City of Jefferson, this 3rd
day of September, 2019.
/s/
_____________, Clerk 1
/s/
_____________, Deputy Clerk
[next page] 2
__________________________
Supreme Court of
Missouri
__________________________
__________________________
__________________________
vs.
__________________________
__________________________
__________________________
MANDATE
__________________________
JUDGMENT
__________________________
__________________________
__________________________

1
2

To the left appears the seal.
Information appears vertically.

